 Office of Inspector General
      Audit Report



DOT’S IMPROPER PAYMENT REPORTING
 GENERALLY COMPLIES WITH IPERA
       Department of Transportation

        Report Number: FI-2012-073
        Date Issued: March 15, 2012
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: DOT’s Improper Payment Reporting                                           Date:    March 15, 2012
           Generally Complies with IPERA
           Department of Transportation
           Report No. FI-2012-073

  From:    Louis King                                                                      Reply to
                                                                                           Attn. of:   JA-20
           Assistant Inspector General for Financial and
             Information Technology Audits

    To:    Assistant Secretary for Budget and Programs/
             Chief Financial Officer

           The Federal Government has long been concerned about improper payments 1
           made through its programs, and has intensified its efforts to eliminate payment
           errors. In July 2010, President Obama signed the Improper Payments Elimination
           and Recovery Act (IPERA), 2 which amends the Improper Payments Information
           Act of 2002, 3 to encourage the elimination of payment error, waste, fraud, and
           abuse in Federal programs. IPERA requires improper payment rates of less than
           10 percent for each Federal program. It also requires Federal agencies to annually
           test for improper payments in their programs, and to publish an annual
           Performance Accountability Report (PAR) or Agency Financial Report (AFR) that
           includes program risk assessments, improper payment estimates, corrective action
           plans, and annual improper payment reduction targets. In November 2011, the
           Department of Transportation (DOT) reported that the Federal Highway
           Administration’s (FHWA) Federal-aid Highway Program had improper payments
           totaling an estimated $450 million. This meets the IPERA’s definition of
           significant improper payments. DOT based its 2011 IPERA reporting on the
           results of its annual improper payment testing and payment recapture audit
           program. 4

           1
               An improper payment is any payment that should not have been made or that was made in an incorrect amount under
               statutory, contractual, administrative, or other legally applicable requirements. An improper payment may also be a
               payment that an agency cannot determine is proper or improper due to a lack of sufficient supporting documentation.
           2
               Public Law Number 111-204 (2010)
           3
               Public Law Number 107-300 (2002)
           4
               A payment recapture audit reviews and analyzes programs’ accounting records and supporting documentation to
               identify overpayments.
                                                                                 2


Furthermore, IPERA calls for Inspectors General (IG) to review their agencies’
compliance and submit reports to the head of each agency; the Senate Committee
on Homeland Security and Governmental Affairs; the House of Representatives
Committee on Oversight and Governmental Reform; the Comptroller General; and
the Controller of the Office of Management and Budget (OMB).

To meet IPERA’s requirements for IGs, we reviewed DOT’s fiscal year 2011 AFR
to determine whether: (1) the improper payment information in the AFR was
accurate; and (2) DOT complied with IPERA’s requirements.

We conducted this audit in accordance with generally accepted Government
auditing standards. A detailed description of our scope and methodology can be
found in Exhibit A.

RESULTS IN BRIEF

In general, DOT accurately reported improper payments in its fiscal year 2011
AFR, as required by IPERA. We noted two minor errors in the reported
information. First, DOT incorrectly reported that the Federal Transit
Administration’s (FTA) Formula Grants Program had significant improper
payments when no improper payments were identified during its annual testing.
Second, DOT overstated the amount of FTA’s Formula Grants Program tested by
about $7 million. These inaccuracies, which were the result of insufficient review
of the draft report information and the contractor’s records, did not impact the
DOT’s overall reporting. Nonetheless, this type of undetected error reduces the
accuracy of the Department’s reporting on improper payments in its programs.

DOT complied with IPERA with a few exceptions. First, DOT did not report
planned or actual completion dates for corrective actions taken for improper
payments in the Federal Highway Administration (FHWA) and Federal Aviation
Administration (FAA) programs, or the results of these actions. Second, the
improper payment target rate for the FAA Program was not achieved. OMB
requires agencies to set target rates for improper payments. The FAA Program’s
estimated improper payments of $34.6 million exceeded the $18 million target by
$16.6 million. Finally, DOT did not report changes to improper payment recapture
program controls and business processes. DOT officials noted that it needs to
enhance its procedures to address these matters. Until then, neither the Department
nor OMB can achieve the full benefits of accurate reporting and a strong improper
payment recapture program.
                                                                                                                3


BACKGROUND

To comply with IPERA requirements, DOT engaged an accounting firm to
develop nationwide sampling plans to use in testing for improper payments, test
invoice payments, and extrapolate improper payment estimates for the
Department’s major grant programs. Annually, DOT tests four grant programs for
improper payments—FHWA’s Federal-aid Highway Program, the Federal Transit
Administration’s (FTA) Formula Grants Program and Capital Investment Grants
Program, and the Federal Aviation Administration’s (FAA) Airport Improvement
Program. These programs have reduced improper payments from $20.6 million in
fiscal year 2009 to almost $140,000 in fiscal year 2011 (see Table 1).

Table 1. Improper Payments Identified During DOT’s Annual
Testing
                                                                                      5
                                                     2009                      2010                     2011
                                                  Improper                 Improper                  Improper
    Program                                       Payments                 Payments                  Payments
    Federal-Aid Highways                         16,317,015                   550,740                   125,962
    (FHWA)
    Formula Grants Program                           269,616                     3,803                          0
    (FTA)
    Capital Investment Grants                      1,879,124                              0                  153
    Program (FTA)
    Airport Improvement Program                    2,152,202                     1,312                   13,814
    (FAA)
    Total                                       $20,617,957                  $555,855                 $139,929
    Source: DOT’s Performance and Accountability Report for fiscal year 2009
            DOT’s Agency Financial Reports for fiscal years 2010 and 2011

In April 2011, OMB issued Circular A-123’s Appendix C, Revised Parts I and II 6
to implement IPERA. The Circular requires AFRs to include: (1) descriptions and
evaluations of payment recapture audit programs; 7 (2) amounts identified for
recapture; (3) descriptions and justification of the classes of payments excluded
from payment recapture audits; (4) amounts recaptured, and those outstanding and
uncollectable, and (5) for programs with improper payments of $10 million or
more, discussions of improper payments’ causes and corrective action plans to
resolve the causes, including target reductions.


5
    DOT-OIG, Actions Needed to Ensure Accurate Executive Order 13520, Report Number FI-2012, November 7,
    2011. OIG reports can be found on our Web site at: www.oig.dot.gov.
6
    OMB, Requirements for Implementing IPERA: Issuance of Revised Parts I and II to Appendix C of OMB Circular
    A-123, April 14, 2011.
7
    OMB Circular A-136, Financial Reporting Requirements, October 27, 2011, establishes reporting requirements for
    payment recapture audits.
                                                                               4


DOT ACCURATELY REPORTED IMPROPER PAYMENTS

In general, DOT accurately reported improper payments in its fiscal year 2011
AFR, as required by IPERA. However, we noted two errors in the reported
information:

   • DOT inaccurately reported significant improper payments in FTA’s
     Formula Grants Program, despite the fact that annual testing did not
     identify any improper payments. The final AFR included this inaccuracy
     because DOT inadvertently omitted language that would have clearly
     stated that none of this program’s payments met the definition of improper
     payments.
   • The report also overstated the invoice payment amounts tested for the
     Formula Grants Program by about $7.1 million. DOT’s contractor
     incorrectly reported testing $47.3 million in payments. We determined that
     the contractor actually tested no more than $40.1 million. Insufficient
     review of the contractor’s records caused this error in the AFR.

While DOT officials were unaware of the errors, the Formula Grants Program’s
improper payment estimates and DOT’s overall IPERA reporting were not
impacted since no improper payments were identified for this program. However,
this type of error reduces the accuracy of the Department’s reporting on improper
payments in its programs.

THE DEPARTMENT COMPLIED WITH IPERA’S REQUIREMENTS
WITH MINOR EXCEPTIONS

DOT complied with IPERA’s requirements with three exceptions. First, the
Department did not include in the fiscal year 2011 AFR it’s planned or actual
completion dates for corrective actions taken for improper payments in FHWA’s
Federal-Aid Highway Program and FAA’s Airport Improvement Program, or the
results of these actions. These omissions occurred because DOT officials were not
fully aware of all reporting requirements.

Second, while DOT met the IPERA requirement to have improper payment rates
of less than 10 percent for its programs, FAA did not achieve its 2011 improper
payment target rate for the Airport Improvement Program. OMB requires agencies
to set target percentage rates of total program payments for improper payments.
DOT officials estimated the Airport Improvement Program’s 2011 improper
payments at $34.6 million, or .89 percent of total Program payments--
$16.6 million over the .5 percent target rate. DOT acknowledged the risk of FAA
not meeting its specific 2011 target rate.
                                                                                 5



Finally, the AFR’s section on DOT’s payment recapture program did not identify
changes to internal controls or business processes that DOT had implemented to
prevent future overpayments. Furthermore, DOT does not have a process to verify
that all grant and contract payments are subject to the payment recapture audit.
Specifically, during fiscal year 2011, DOT reported net costs of $78 billion, but
tested only $26 billion in its recapture audit program, and did not explain in the
AFR what types of payments it had excluded from testing.

DOT officials acknowledged deficiencies in the 2011 payment recapture program
and plan to implement additional procedures to ensure the completeness of its next
payment recapture audit.

CONCLUSION

OMB has designated as a top priority for all Federal agencies the reduction of
improper payments. Reduction of these payments has been a significant challenge
for DOT since the Department makes over $60 billion in payments to grantees
annually. In response to this challenge, DOT has taken action to produce reliable
improper payment reporting and comply with IPERA requirements. While DOT
has strengthened its annual improper payment testing and reporting, the
procedures do not fully meet the level of accountability that IPERA and OMB
Circular A-123 require to minimize the possibility of improper payments of
increasingly scarce Federal funds.

RECOMMENDATIONS

We recommend that DOT’s CFO enhance procedures to:

   1. Ensure that the preparation and issuance of the IPERA Section of the AFR
      report is consistent with the results of annual improper payment testing, and
      in compliance with IPERA requirements, and

   2. Ensure that all program payments subject to the payment recapture audit
      program are identified and any payments excluded from the audit are
      reported.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
                                                                                   6


We provided a discussion draft report to DOT officials on March 13, 2012. We
discussed the draft report with DOT officials on March 14, 2012. DOT officials
generally concurred with the findings and recommendations.

ACTIONS REQUIRED

In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments within 15 calendar days. If you
concur with the findings and recommendations, please indicate the specific action
taken or planned for each recommendation and the target date for completion. If
you do not concur, please provide your rationale. You may provide alternative
courses of action that you believe would resolve the issues presented in this report.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1407, or Earl Hedges, Program Director
at (410) 962-1729.
                                          #

cc:    Martin Gertel, M-1
                                                                                   7




EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this audit from December 2011 through March 2012, in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

To address our audit objectives, we reviewed applicable laws and regulations. We
interviewed DOT personnel and contractors responsible for IPERA’s
implementation. To assess the Department’s compliance with IPERA
requirements we: (1) reviewed the Departmental Assessable Unit Risk Profiles to
determine whether DOT reviewed and reported programs that may be susceptible
to significant improper payments; (2) reviewed statistical sampling plans, and
improper payment projections and amounts to verify all programs susceptible to
significant improper payments were tested and accurately reported; and
(3) obtained supporting documents on the actions taken and reported in the AFR.

OIG’s Senior Statistician selected a statistical sample of payments that the
Department and its contractor had tested, and we retested the propriety of a total of
44 sample invoice payments totaling $335.2 million in FHWA’s Federal-Aid
Highway Program, FTA’s Formula Grant and Capital Investment Grant Programs,
and FAA’s Airport Improvement Program. The documentation included, among
other documents, summary schedules, grant agreements, invoices, checks, and
payment vouchers.




EXHI BI T A. Scope and Methodolog y
                                                             8




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                   Title
Earl Hedges                            Program Director

Mark Rielly                            Project Manager

Lakarla Lindsay                        Senior Auditor

Petra Swartzlander                     Senior Statistician

Susan Neill                            Writer-Editor

Martha Morrobel                        Referencer




Exhibit B. Major Contributors to This Report
